i

i

Jn\d-

iMjine
£>0 P g-r M £ C.0\) Rt O£_IM£_jULfelJJ.£D__&XftX£Jk

JM0.MAS-ft..MC6»LI——P.€TjJ_\ O.K\ E-^g,

vs.

or fjQttftec.Ttmos

A.9J?_£K\^,\XXT-Q_9_mXl0.bi_h0-^_W.fe.\X_Q.e_(L£^TJARAfel

First District Court of Appeal
State of Florida
No. 1D19-3130
Thomas McGill,
Petitioner,
v.
Florida Department of
Corrections,
Respondent.

Petition for Writ of Certiorari—Original Jurisdiction.
December 30, 2020
Per Curiam.
The petition for writ of certiorari is denied on the merits.
LEWIS, TANENBAUM, and LONG, JJ., concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

IN THE SECOND JUDICIAL CIRCUIT COURT OF FLORIDA
IN AND FOR LEON COUNTY, FLORIDA
THOMAS MCGILL, DOC #982800
Petitioner
Case No.: 2018-CA-002011

v.
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent

ORDER DENYING PETITION
THIS CAUSE comes before the Court on a petition for writ of mandamus filed by Thomas
McGill (herein Petitioner), who argues that the Florida Department of Corrections (herein the
Department) has improperly designated him ineligible to earn incentive and educational gain time.
The Court, having considered the petition, the Department’s response, any reply thereto, the court
file, and being otherwise fully advised in the premises, finds as follows:
Petitioner was received by the Department on April 25,1996, having been sentenced in the
Circuit Court of Bay County on April 12,1996, in pertinent part, to life in prison for the crime of
first-degree murder, in violation of Section 782.04(1), Florida Statutes (1994). Petitioner
committed his offense on December 26, 1994, when he was a juvenile.
On June 16, 2017, nunc pro tunc to April 12,1996, Petitioner was resentenced from life to
a prison term of fifty years, less 473 days jail credit as previously awarded, and credit for time
already served in prison.
On March 27, 2018, the Department processed a court order dated March 13, 2018,
amending McGill’s judgment and sentence to reflect that he is entitled to a review of his sentence
after twenty-five years. Accordingly, Petitioner’s tentative release date is December 13, 2044.

Case No.: 2018-CA-002011

On September 18, 2018, Petitioner filed a petition for mandamus relief before this Court,
arguing that first-degree murderers who committed their crimes while the 1994 gain time statutes
were in effect are entitled to earn gain time once their sentences have been reduced to a term of
years.
Also currently pending before this Court is Petitioner’s Request for Hearing/Oral
Argument, filed June 6, 2019, and the Department’s Motion for Disposition of the Instant Case
Based on the Already Submitted Written Pleadings Without Hearing, filed June 17, 2019. The
Court, having considered the motions and the written pleadings already filed with the Court, finds
this case is well-suited for disposition based on the written pleadings. Accordingly, Petitioner’s
request for a hearing is DENIED and the Department’s motion for disposition is GRANTED.
Under the gain time statute in effect between January 1, 1994, and October 1,1995, during
which period Petitioner committed his offense, inmate could earn either twenty- or twenty-fivedays’ incentive gain time per month, depending on the severity of the offense. Section
944.275(4)(c), Florida Statutes (1994), provided:
For each month in which an inmate works diligently, participates in training, uses
time constructively, or otherwise engages in positive activities, the department may
grant incentive gain-time in accordance with this paragraph. For sentences imposed
for offenses committed on or after January 1, 1994, for offenses which are, were,
or would have been ranked on the offense severity chart in s. 921.0012 in:
1. Levels 1 through 7, up to 25 days of incentive gain-time, which shall be credited
and applied monthly.
2. Levels 8, 9, and 10, up to 20 days of incentive gain-time, which shall be credited
and applied monthly.
Capital felonies were not included in the Section 921.0012 offense severity ranking chart.
Accordingly, capital felony sentences were not eligible for gain time credit.1 In the instant case,

1 «

The 1994 sentencing guidelines, that were effective January 1, 1994, and any revisions thereto, apply to all felonies,
except capitalfelonies, committed on or after January 1, 1994, and before October 1, 1995.” § 775.082(8)(b) Fla!
Stat. (emphasis added).

2

Case No.: 2018-CA-002011

Petitioner has been convicted of committing felony first-degree murder under Section 782.04(1),
Florida Statutes (1994), an offense which is not included in any of the stipulated Levels of Section
944.275(4)(c) (1994).
Petitioner devotes several pages to discussing what constitutes a “capital felony” under
Florida law, but that discussion has no real bearing on the issue at hand. Regardless of whether
Petitioner is a “capital” felon now that his sentence has been converted to a term of years, the fact
remains that the Florida Legislature declined to include his offense in any of the statutorilydesignated Levels in the 1994 gain time statutes. For this reason alone, he is ineligible to earn gain
time. Gain time is a matter of grace that an inmate does not have a vested right to receive without
a legislative enactment.” McGee v. State. Florida Dept. of Corr.. 935 So. 2d 62,63 (Fla. IstDCA
2006) (citing Waldrup v. Dugger. 562 So.2d 687,694-95 (Fla. 1990). Further, it is well-established
that “[a] prisoner’s ability to earn gain time is based on the statutes in effect at the time of the
offense.” In re Commitment of Phillips, 69 So. 3d 951, 956 n.6 (Fla. 2d DCA 2010), approved
sub nom. State v. Phillips. 74 So. 3d 1084 (Fla. 2011), and approved sub nom. State v Phillips
119 So. 3d 1233 (Fla. 2013). As the Florida Supreme Court explained in Waldrup: “inmates have
no absolute right to avail themselves of a separate, intervening gain-time statute that is more lenient
than both the statute in effect at the time of the offense and the one presently in effect.” IcL at 695
(citing Connell v. Wade, 538 So. 2d 854, 855 (Fla. 1989)). Far less do inmates enjoy a right to
have the judicial branch re-write gain time statutes perceived to be insufficiently clement.
Petitioner argues that because his sentence was reduced from life imprisonment to a term
of twenty-five years, the underlying offense is effectively not “capital” for sentencing purposes,
and that he is therefore eligible to earn gain time. As shown above, this argument is without merit,
because Petitioner s ineligibility to earn gain time does not depend on whether his offense is or is

3

Case No.: 2018-CA-002011
not a capital felony.” Rather, his ineligibility is rooted in the fact that the gain time statutes in
effect at the time he committed his offense did not award gain time to first-degree murderers.
Nevertheless, even if Petitioner’s premise is correct - namely, that he is eligible to earn gain time
so long as he is not a designated capital felon - his argument is still without merit. Under Florida
law a felony which is not “capital” in the traditional sense of the word (i.e., punishable by death)
is in fact capital for sentencing purposes when so designated by the Legislature. Petitioner has
mdisputably been convicted of committing first-degree murder under Section 782.04(l)(a)2.d.,
Florida Statutes (1943), which is expressly designated a “capital felony” by subsection (l)(a)3. of
the same statute. Accordingly, Petitioner is a capital felon.
It is a longstanding principle of statutory construction “that words or phrases in a statute
must be construed in accordance with their common and ordinary meaning.” Donato v. Am. Tel.
& Tel. Co., 767 So. 2d 1146, 1154 (Fla. 2000). However, “[w]hen a definition of a word or phrase
is provided in a statute, that meaning must be ascribed to the word or phrase whenever it is repeated
in the statute unless a contrary intent clearly appears.” Nicholson v. State. 600 So.2d 1101, 1103
(Fla. 1992). Section 775.081(1), Florida Statutes (1994), effectively defines a “capital felony” as
any felony designated such by the Florida Legislature, regardless of whether it is, in fact,
punishable by death:
Felonies are classified,^ the purpose ofsentence andfor any other purpose
specifically provided by statute, into the following categories:
(a) Capital felony;
(b) Life felony;
(c) Felony of the first degree;
(d) Felony of the second degree; and
(e) Felony of the third degree.
A capitalfelony and a life felony must be so designated by statute.
(emphasis added).

I

Case No.: 2018-CA-002011

In Rusaw v. State, the Florida Supreme Court held that, even though a defendant convicted
of capital sexual battery could not be sentenced to death, his crime was still “capital” because it
was so designated by statute. 451 So.2d 469, 470 (Fla. 1984). The Court rejected the defendant’s
argument that he should have been sentenced as though he had committed a life felony, because,
the Court observed, his offense was still designated a capital felony under Florida law. Id; see
also Batiev. State, 534 So. 2d 694 (Fla. 1988) (“Notwithstanding our determination that the sexual
battery proscribed by subsection 794.011(2) is no longer a capital crime, in Rusaw and HState v.
451 So.2d 844 (Fla. 1984)] we recognized the legislature’s definition of it as ‘capital’ in
determining legislative intent for other consequences of this crime.”).
The most thorough judicial exposition of Florida’s “capital felony” doctrine seems to be
the recent opinion of the Second District in State v. Kwitowski. 250 So. 3d 210 (Fla. 2d DCA
2018). There, the court heard an appeal from an offender, one Kwitowski^ who had been convicted
of violating Section 837.02(2), Florida Statutes (2016), which made perjury in “an official
proceeding related to the prosecution of a capital felony” a second-degree felony. Id. at 211.
Kwitowski had committed perjury in a prosecution for capital sexual battery, an offense classified
under Section 794.01 l(2)(a), Florida Statutes (2016), as a “capital felony.” Id- The trial court
dismissed the second-degree perjury charges on the grounds that capital sexual battery cannot be
a capital felony because it is not punishable by death. Id. at 211 -12. The Second District reversed
the trial court s dismissal, explaining that “the statutory term ‘capital felony’ unambiguously refers
to an offense that the legislature has by statute classified as a capital felony without regard to
whether the death penalty may constitutionally be imposed for an offense so classified.” Id. at
211. The court proceeded to deliver an extensive description and explanation of Florida’s capital
felony doctrine, some highlights of which include the following:

5

Case No.: 2018-CA-002011

The trial court’s interpretation of the term “capital felony” hinged on its sense that
the ordinary meaning of that term refers to a felony constitutionally punishable by
death. And it is doubtless true that when we determine the plain meaning of an
undefined term in a statute, the ordinary, everyday meaning of that term is what
usually controls. But where the legislature has defined the term, it is the defined
meaning, not the ordinary meaning, that controls — at least absent a clear indication
that a different meaning from the defined one was what the legislature meant. Here,
section 775.081 — the statute classifying felonies into different categories —
defines the term ‘capital felony’ as a felony that the legislature has classified by
statute as a capital felony.
The classification statute is, to be sure, not a run-of-the-mill definitional statute of
the type that begins ‘as used in this chapter, the following terms have the following
meanings.’ But that is how the statute operates. It says both that a‘capital felony’
is one that the legislature has by statute classified as such and that this classification
operates ‘for the purpose of sentence and for any other purpose specifically
provided by statute.’ In other words, where the legislature has classified an offense
as a capital felony, that classification controls both for purposes of sentence and for
any other purpose where a statute specifically provides that classification is
relevant. Although it does not call itself a ‘definitions’ provision, that is very much
what the classification statute is. Like a definitional provision, the text of the
classification statute tells the reader that when the legislature uses the term ‘capital
felony’ in a statute that specifically makes the classification of a felony relevant, it
means any felony that it has by statute called a capital felony..
When a statutory term has been used in a way that carries a specialized or technical
meaning, that meaning prevails over the term's ordinary meaning. And similarly,
when a statute ‘uses an undefined term with a fixed legal meaning fitting the
context, that meaning governs’ instead of the ordinary meaning of that term. The
context in which the word is used is an important factor in determining whether the
term has been used in a technical or ordinary sense.
Here, the context in which the term ‘capital felony’ is used in the Florida Criminal
Code is dispositive of the question- In the Florida Criminal Code, the term ‘capital
felony’ is both a specialized reference and a legally significant reference to a felony
that the legislature has classified as such. Section 775.081(1) lists every
classification the legislature might give to any felony it creates and then says that
each felony has the classification the legislature gives it in a statute. One of those
classifications is ‘[c]apital felony.’ Whatever the ordinary meaning of the term
‘capital felony’ might be in other contexts, section 775.081(1) quite clearly refers
to a felony that the legislature has labeled a capital felony in a statute that classifies
an offense....
We recognize, of course, that the consequence of the classification of an offense as
a capital felony is that the legislature deems it potentially eligible for imposition of
the death penalty under section 775.082(l)(a). But that consequence does not make

6

Case No.: 2018-CA-002011

it reasonable to understand the term ‘capital felony’ in the second-degree perjury
statute as meaning only a felony that may constitutionally be punished by death.
Nothing in either section 775.081(1) or section 775.082 says that the constitutional
availability of the death penalty determines or influences the classification of a
crime as a capital felony — i.e., nothing in those statutes says that a capital felony
for which the death penalty is no longer constitutionally available is no longer
classified as a capital felony.
Id. at 214-17 (numerous citations omitted).
It is doubtless with this tradition of statutory construction in mind that the Florida Supreme
Court recently and matter-of-factly observed that, under Florida law, "<z juvenile can now be
sentenced to a term-of-years sentence for a capital offense.” Purdv at 727 (emphasis added).
Petitioner’s insistence that a felony can only be “capital” when it is punishable by death
completely ignores the aforementioned considerations and precedents, and relies on a very
selective misreading of what the courts have pronounced on various occasions. For example, he
cites the Florida Supreme Court’s observation in Mills v. Moore. 786 So.2d 532, 538 (Fla. 2001),
that “a ‘capital felony’ is by definition a felony that may be punishable by death,” but ignores all
the other case law which qualifies this observation, including the Supreme Court’s own abiding
precedents. See Kwitowski. 250 So. 3d at 217-19 (finding “Mills is inapposite because it had
nothing to do with... whether a felony classified as a capital felony retains that classification, and
hence that meaning, when it is determined that it is unconstitutional to impose the death penalty
for that particular felony. . . . [UJnless and until the legislature changes that classification, the
offense remains a capital felony’ as that term is used in the Criminal Code —just one for which
a sentence of death cannot, consistent with the Constitution, be carried out.”) (citing Batie v. State.
534 So.2d 694, 694-95 (Fla. 1988);.Buford v. State. 403 So.2d 943 (Fla. 19811: Rusaw v. State.
451 So.2d 469 (Fla. 19841; State v, Honan. 451 So.2d 844 (Fla. 1984)).

7

i

Case No.: 2018-CA-002011

Likewise, the Supreme Court in Huffinan v. State. 813 So. 2d 10 (Fla. 2000) had nothing
to do with the definition of “capital felony” under the Florida Statutes, but with who qualifies as
a capital felon for the purposes of Rule 3.850, Florida Rules of Criminal Procedure. As the high
Court explained, “even though certain types of sexual crimes :qualify, .as capital felonies under
either current or prior versions ofthe Florida Statutes.... defendants convicted of capital crimes,
but not sentenced to death, qualify as noncapital defendants for the purposes ofrule 3.850.” Id. at
11 (emphasis added). Article V, Section 2(a), of the Florida Constitution grants to the Supre me
Court the exclusive authority to adopt rules of judicial practice and procedure, and to interpret the
same, and this the Court did in Huffman.
Petitioner similarly misreads the First District’s ruling in Ortiz v. State. 188 So. 3d 113,
115 (Fla. 1st DCA 2016), review granted, decision quashed on other grounds. 43 Fla. L. Weekly
S556 (Fla. Oct. 19, 2018), which, in pertinent part, did not concern itself with the definition of
“capital felonies” under the Florida Statutes, but with the definition of the distinct expression
“capital cases” under Section 913.10, Florida Statutes. The court observed that “[w]hile it is true
that first degree murder is a capital felony pursuant to section 782.04(1 )(a), and that section 913.10
mandates a 12-person jury in ‘all capital cases,’ a capital case for purposes of Chapter 913,
Florida Statutes, is a case where the death penalty is legally possible,” and justified this
construction by recourse to the statute’s own plain language: “The Florida Legislature plainly
understands a capital case for purposes of chapter 913 is one where the death penalty is possible
as evidenced by section 913.13, which excludes from jury service in a capital case any person who
has an opposition to the death penalty.” Id, (emphases added).
Petitioner’s invocation of Sections 775.082(1) and 921.141, Florida Statutes (1994), has
already been anticipated and answered by the Supreme Court in Rusaw. where the Court observed:

8

Case No.: 2018-CA-002011

[E] limination of the death penalty from the statute does not of course destroy the
entire statute. We have steadfastly ruled that the remaining consistent portions of
statutes shall be held constitutional if there is any reasonable basis for doing. In
subsection 794.011(2) the legislature has denominated certain conduct to be a
“capital” crime and has provided alternative penalties for that crime. [Our] striking
of one of those penalties has not disturbed the other.
IcL at 470 (citations omitted). In other words, the judicial striking of the death penalty for a capital
felony does not disturb the other consequences for that crime imposed by the Legislature, including
ineligibility to earn gain time.

See Batie at 694-95 (observing that “[notwithstanding our

determination that the sexual battery proscribed by subsection 794.011(2) is no longer a capital
crime, in Rusaw and Hogan we recognized the legislature's definition of it as ‘capital’ in
determining legislative intent for the other consequences of this crime”).
Section 775.15(1), Florida Statutes (1994), does not support Petitioner’s position either.
That statutory subsection clearly stipulates that “[i]f the death penalty is held to be unconstitutional
by the Florida Supreme Court or the United States Supreme Court, all crimes designated as capital
felonies shall be considered life felonies for the purposes of this section,” i.e., for the purposes of
Section 775.15, which governs time limitations on prosecutions. This section of the Florida
Statutes is not at issue in the instant case.
Finally, Section 944.275(4)(e), Florida Statutes (1994), does not presently allow Petitioner
to earn the stipulated “one-time award of 60 additional days of incentive gain-time” because this
statute provides that such credit may only be awarded to an inmate “who is otherwise eligible” for
incentive gain time. As has been demonstrated, under Section 944.275(4)(c) (1994), Petitioner is
ineligible to earn incentive gain time.
Petitioner further argues that, even if he is a capital felon, he is entitled to earn incentive
gain time solely because none of the gain time statutes explicitly state that first-degree murderers
are ineligible to earn gain time. This argument is also without merit. Section 944.275(4)(c),

9

Case No.: 2018-CA-002011
Florida Statutes (1994), expressly delineates who is eligible to earn incentive gain time and in what
amount it is to be credited, and under this statute first-degree murderers are ineligible to earn it,
even though the Legislature could quite easily have provided that such felons would become
eligible in the event their sentences were reduced to a term of years.
Sections 944.275(2)(a) and (3)a, Florida Statutes (1994), do not support Petitioner’s
argument either. Subsection (2)(a) does not provide that all inmates sentenced to a term of years
are eligible to earn incentive gain time. Instead, it provides that, when establishing the date of
release from custody, the Department “shall reduce the total time to be served by any time lawfully
credited,

(emphasis added). As demonstrated supra, Petitioner is not lawfully entitled to any

such credit. Similarly, subsection (3)(a) stipulates that the Department shall establish for all
inmates a tentative release date “which shall be the date projected for the prisoner’s release from
custody by virtue of gain-time granted or forfeited as described in this section.” (emphasis added).
As has been shown, Section 944.275 (“this section”) does not authorize the award of gain time to
convicted first-degree murderers.
Petitioner is further mistaken when he asserts that the Department has, or had ever, awarded
him incentive gain time his first-degree murder sentence. As the Department has repeatedly
explained to him, the Department keeps administrative track of monthly incentive gain time
potentially (but not actually) earned by ineligible offender inmates, doing so in case the Legislature
elects to amend the Florida Statutes to render such inmates eligible, or in the event an inmate’s
conviction or sentence is modified in such a way that he becomes newly eligible to be awarded it.
By Petitioner s own admission, this so-called “award” of gain-time was being made on a monthly
basis (and “revoked” for disciplinary infractions) for some twenty or so years before his life
sentence was modified to a term of years, two decades during which neither he nor the Department

10

Case No.: 2018-CA-002011
expected he would ever be released from custody barring legislative amendment of the gain time
statutes or judicial modification of his sentence, so such recording of accumulated gain time was
obviously not an actual award of the same.
The Florida Legislature has thus far declined to award inmates in Petitioner’s situation first-degree murderers who offended in 1994 - eligibility to earn gain time on their first-degree
murder sentences, and Petitioner remains a convicted first-degree murderer. Accordingly, while
the Department continues to keep track ofpotential monthly incentive gain time award, this award
will not become activated until the Legislature amends the gain time statutes or the sentencing
court amends Petitioner’s conviction.
No such modification has occurred in the instant case: Petitioner remains convicted of a
capital felony, and consequently has earned no gain time on his sentence.
Petitioner also invokes ofRule 33-11.0065(5)(c), Florida Administrative Code (1994),
which provides:
Death or Life sentences cannot be reduced by gain time. However, any inmate
serving a death or life sentence will be considered for incentive gain time and the
gain time will be posted so that in the event the death or life sentence is commuted
to a number of years, the accumulated incentive gain time will be applied to the
inmate’s sentence.
First, it is notable that Petitioner invokes this rule, as by doing so he implicitly concedes that he
has never been awarded incentive gain time. Instead, for the last twenty-two years or so, he has
only been “considered” for gain time, and that gain time has only been “posted,” not awarded, in
the event he becomes eligible to receive it.
The above rule by itself is an inadequate expression of the requirements of Florida law, at
least as it applies to first-degree murderers who committed their offenses between January 1,1994,
and October 1, 1995. Nevertheless, the rule has to be interpreted and applied in a manner

ll

Case No.: 2018-CA-002011

consistent with Florida Statutes, and disregarded to the extent it can be read to contradict with the
statutes. “Rulemaking is not a matter of agency discretion,” and “[n]o agency has inherent
rulemaking authority.” §§ 120.535(1); 120.54(15), Fla. Stat. (1994). Since “[gjain time is a matter
of grace that an inmate does not have a vested right to receive without a legislative enactment,”
McGee at 63, and “[a] prisoner's ability to earn gain time is based on the statutes in effect at the
time of the offense,” In re Commitment of Phillips at 956 n.6, the Department has no authority to
award gain time without specific authorization by the Legislature. Accordingly, to the extent Rule
33-11.0065(5)(c) is interpreted to apply to inmates in Petitioner’s situation, to that extent it is
simply invalid.
The cases cited by Petitioner in support of his contention that the aforementioned rule
entitles him to incentive gain time credit are inapposite to the case at bar. In Pettway v. WainwnVht
450 So. 2d 1279 (Fla. 1st DCA 1984), the Department had declined to award discretionary
incentive gain time to an inmate during his last forty-five days of imprisonment. The inmate
indisputably qualified for that gain time under the Florida Statutes and the Department’s own rules,
but the Department argued that it needed “a cut-off date for granting incentive gain-time in order
to determine a definite release date sufficiently in advance of a prisoner's release and in order to
properly prepare for the prisoner's release.” Id. at 1280. The court observed that the Department’s
concern was valid, but that the award or non-award of gain time had to be determined uniformly
according to duly promulgated rules, and the court granted the inmate’s petition. Id at 1280-81.2
The facts of this case could not be farther removed from Petitioner’s: In the instant case,
Petitioner’s non-award of gain time is not within the Department’s discretion, but follows from
the Department’s non-discretionary enforcement of Section 944.275(4)(c), Florida Statutes (1994).

2 An inmate similarly situated later brought suit in DeAngelis v. Wainwrieht. 455 So. 2d 639 (Fla. 1st DCA 1984), by
which time the Department had duly adopted the new rules authorizing the withholding. Id. at 639-40.

12

Case No.: 2018-CA-002011

The ex post facto doctrine is likewise inapplicable to this case. First, and most crucially,
Petitioner has not actually been awarded any gain time, for the reasons discussed supra and by his
own implicit admission (according to his invocation of 33-11.0065(5)(c)). Since he has never been
awarded gain time, Petitioner has not suffered any ex post facto by the Department’s rules or by
the Department’s interpretation of the Florida Statutes. Second, the Department is enforcing the
very gain time statutes in effect at the time Petitioner committed his offenses, not some later
statutes or regulations which have put him in a detrimental position.
It is therefore clear why Lvnce v. Mathis. 519 U.S. 433 (1997) and Cridland v. Sinsleterv.
695 So. 2d 794 (Fla. 1st DCA 1997) are inapposite to the instant case. As Petitioner himself
observes in his petition, in both of these cases the inmates in question had actually been awarded
gain time credits, were actually released from prison, and were subsequently re-arrested and
returned to prison after the Department subsequently forfeited by the Department pursuant newly
adopted interpretations by the Department of statutes enacted after the credit had already been
awarded. Lvnce at 435-36; Cridland_at 794-95. Petitioner is simply incorrect when he affirms that
the First District in Cridland “addressed the precise situation arising in” Petitioner’s case.
Petitioner’s claims to the contrary notwithstanding, the Department has not, in fact,
changed its method of calculating Petitioner’s gain time (Petition at 27), nor has it “applie[d] a
new interpretation of a statute after a long period of applying a different interpretation” (Petition
at 28), let alone “adopt[ed] retroactive rules.” (Petition at 31). Likewise, no gain time has been
awarded in the instant case, and none has been forfeited.
Finally, Petitioner avers that the very fact that gain time award eligibility is determined by
the statutes in effect at the time an inmate committed his offenses is, ipso facto, a violation of the
equal protection clauses of the United States and Florida Constitutions. Of course, neither the texts

13

Case No.: 2018-CA-002011

of the U.S. and Florida constitutions, nor the construction of the same by the judiciary of these
jurisdictions, has ever held that all prisoners convicted of the same offenses, but at different dates
and under different statutory schemes, are entitled to suffer the same consequences for their crimes,
and no such authority is cited by Petitioner.
As the Florida Supreme Court has observed:
Equal protection is not violated merely because some persons are treated differently
than other persons. It only requires that persons similarly situated be treated
similarly. In the absence of a fundamental right or a protected class, equal
protection demands only that a distinction which results in unequal treatment bear
some rational relationship to a legitimate state purpose. This is known as the
rational basis test. Since there is no fundamental right or suspect class at issue here,
the State need only meet that test.
Duncan v. Moore, 754 So. 2d 708, 712 (Fla. 2000) (citations omitted). Inmates do not enjoy a
fundamental or constitutional right to gain time of any sort, and first-degree murderers are not a
“protected class” according to any traditional sense of that term. Accordingly, the State of Florida
only needs to meet the rational basis test to prevail against an equal protection claim. That test is
met here, where the State’s gain time statutes are applied equally to all inmates similarly situated,
i.e., to all inmates whose offenses were committed during the period the gain time statutes were m
effect, and where the state has the eminently legitimate interest in subjecting all convicted
offenders to consequences which they had constructive notice of at the time they committed their
offenses.
Petitioner is being treated, under Florida law, similarly to all persons similarly situated as
he is, i.e., similarly to all juvenile first-degree murderers who committed their offenses between
January 1, 1994, and October 1, 1995, and who have had their life sentences converted to a term
of years.

14

Case No.: 2018-CA-002011

In conclusion, the Court finds that Petitioner is a first-degree murderer and capital felon,
and that, having committed his offense in 1994, he is accordingly not eligible to earn gain time on
his sentence.
Therefore,, it is
ORDERED and ADJUDGED that the petition for writ of mandamus is hereby DENTED.
The Clerk is directed to close this file.
DONE and ORDERED in Chambers, Tallahassee, Leon County, Florida, on this
day of

-mm c. cooper
Circuit Judge

Copies furnished to:
Beverly Brewster, Esq.
Assistant General Counsel
Florida Department of Corrections
501 S. Calhoun St.
Tallahassee, FL 32399
Michael Ufferman, Esq.
Counsel for Petitioner
2022-1 Raymond Diehl Rd.
Tallahassee, FL 32308

Copies Mailed and/or E-Served
by SB on____JUL 2 6

15

ztk.

(ttfrtplS

Win Window

Subject: FWr release date calculation Thomas McGill, DC#982800,
From:
To:
Oc:
Date;

h8ynes.stecoy@nwH.dc.state.fi.tJs
sfudenstiRe@yahoo.com,
haynes.stacey@mait.dc.state.fi.us
Friday, February 28,2016.2:51:04 PM EST
\

Good afternoon. Per our phone conversation earlier this month, below is the information pertaining to the
application of gain-time on capital felonies with offense dates between 171/94 and until 9/30/95:
Capital feionies are not included within the sentencing guidelines (s„921 001{4Xb)2: “The 1994
guidelines apply to sentencing for all felonies, except capital felonies, committed on or after
January 1,1994, Any revision to the 1994 guidelines applies to sentencing for all felonies, except
capital felonle^. committed on or after the effective date of the revision.") Beginning 1/1/94 and until
9/30/95, the authorization to award Incentive gain time was based cm theguideline severity ievel of
the underling offense (s.944.275(4Xbj2; "For offenses ranked in offense severity levels 1 through 7,
under s. 921,0012 or s. 921.0013, up to 25 days of incentive gain-time may be granted.. .For
offenses ranked in offense severity levels 8,9, and 10, under s. 921.0012 or s. 921.0013, up to 20
days of incentive gain-time may be.granted). Since capital crimes are not included within the
guidelines sentencing scheme, they are not assigned a severity level For term-of-year sentences
imposed for capital crimes committed 1 /1/94 to 9/30/95. no gain time is authorized.

!
i

As of February 11,2016, the Department has posted 4148 days of net gain-time solely for record keeping
purposes. The gain-time cannot be applied to the sentence fora capita! felony. He would be eligible for
gain-time on the consecutive sentence in count 2.
Please let me khow if you have any more questions pertaining this information, thank you, and have a nice
weekend!
Stacey Haynes
i

Correctional Services Consultant
Bureau of Admission and Release

!
!

850-717-3078

I

I

From: Haynes. Stacey
Sent: Wednesday, February 10,2016 7:4? AM
To: 'Sonye Rudenstine'
Gc: Haynes, Stacey.
Subject: RE: release date calcination Thomas McGill, DC$982800,
(i

i
1/5

f

Prim Win**
Morning, it may be best to discuss over the phone rather than go back and tor the over email. Please give
me a call at your convenience. Thank you*

«.'28J8

From: Sonva ftucfenstlne :maiito:srudenstinefeVahoo.comi
Sent: Friday, February 05,201612:31 PM
To: Haynes, Stacey
Subject; Re; release date calculation Thomas McGill, DC#982800,

Okay, thanks.
Sonya Rudenstine
2531 NW41stSt.,Ste.E
Gainesville, FL 32605
(352) 374-0504
On Fob 5. .2016, at 10:58 AM, Haynes, Stacey «dravneS.stacev@mail:6b.:state.ti.usa' wrote:
Good moming. I am waiting to hear back from my supervisor as to whether or not this inmate would be
eligible to receive gain-time or not. Once i get that answer, i can respond to your inquiry, thank you.

?

Stacey Haynes:
Correctional Services Consultant
Bureau of Admission and Release
650-717-307B
:
From: Sonya Rudensline jmailtoamdensfme@yahoo.ooml
Sent Monday, February 01.2016 7:04 AM
To: Haynes, Stacey
Subject: release date calculation

>

Hi,Stacey,

Could you do me a favor and give me an estimated release date (e nd gain time details, like you did for Kleppinge?) for
Thomas McGill, DC*©82800, If he te resentenced to 40 years in prison for his 1st degreemurder, condiment to his
robbery? He is a juvenile pending resentencing on the murder conviction.

!■

:•

There is no rush on this. Many thanks, Sonya

in

■*fD2DlS

Prioi Window

Sonya Rudenstine
Attorney at Law
2631 NW 41st St.. $te, £
Gainesville, FL 32608
ph: (352) 374-0804
fax: 066) 539-6617

This e-msiit, and any attachments thereto, is intended only for use by this addresserHs) named h^eih end may
; contain legally privileged and/or confidential information. If you are not the intended recipient of this e«ma>Vyou
are hereby notified that any dissemination, distribution or copying of the e-mail, add any attachments thereto,
is strictly prohibited. If you have received this e-mail in error, please notify we by replying to this messageand
permanently delete the original arid any eopyof this e-mail and any printout thereof.

!

;
I

t
i

i
*
: .vs

‘
i
:■

STATE OF FLORIDA

}
)

COUNTY OF ALACHUA

)
AFHDAVIT

1, Sonya Rudenstine, having been first duly sworn or affirmed, do hereby depose and
say:
1.
My name is Sonya Rudenstine and i reside in Gainesville, Florida,
Alachua County*
2.
t own a solo law practice at 224 NW 2^ Avenue, Gainesville, Florida,
32601.1 opened my practice In 2006 and represent individuals convicted of serious
felonies on appeal and in posteonvfction proceedings, as wet! as individuals
convicted as adults for Offenses they committed when they were minors Who were
sentenced to life in prison without tbepossibility of parole.
3.
1 began representing Thomas McGill, along with co-counsel Michael
Ufferman, in August 2012. Having been sentenced to I He without parole for a firstdegree murder conviction and a concurrent sentence of 153.7 months for an armed
robbery conviction, both of which he committed as a juvenile in 1994, Mr. McGill
believed he was eligible for a resentencing hearing pursuant to Miller v. Jackson, 567
US. 460(2012}.

r

4.
After granting Mr. McGill's Rule 3.800(a) motion to correct an illegal
sentence, the trial court scheduled his resentencing hearing for January 12-13,2017,
5.
On February !, 2016, in preparation for the resentencing hearing. 1
emailed Stacey Haynes, a Correctional Services Consultant for tee Florida
Department ofCorrections (hereinafter "tee Department"), to request ao estimated
release date for Mr. McGill, including any gain-time that had been applied over tee
approximately twenty years he had been incarcerated in the Department's custody, i
asked Ms. Haynes to calculate tee estimated release date based on a new,
hypothetical new sentence of forty years in prison for the first-degree rounder
conviction, and the same, concurrent 153.7-monthsentence for the jobbery
conviction that Mr. McGill had originally received.

l

!

5

\
■:

6. Ms. Haynes initially responded by email on February 5,2016,
informing me teat she would have to check with her supervisor to find out whether
Mr. McGill was eligible for gain-time before she could provide an estimated release
date.
7, On February 10,2016, Ms. Haynes sent me an email indicating that it
would be best to discuss the Issue of Mr. McGill's release date over tee phone rather
f

chan by emaiL Itelep honed her and she informed me that Mr, McGill had accrued
4,14$ days In gain-time, but that die Department Wascurrently in the.procesS of
removing gam-time from the classification records ofvarious juveniles* including Mr,
MeGiU, because tine Department had recently changed its interpretation of section
921D01(4)(b){23 of the Florida Statutes, She told me that the agency had recently
determined that, contrary to its previous interpretation, individuals convicted offirstdegree murder between January 1,1994 and September 3d, 1995, including Mr.
McGiB, werenot entitled to gain-time under the statute:
8.
Ms. Haynes indicated that a record of Mr. McGill's gain-time would be
backed up on the Department’s computer system, hut would no longer be reflected In
his prison dasstflcation file
9.
i asked Ms. Haynes for written documentation ofthe Department’s new
policy, as well as documentation of Mr, McGtU’s gain time. In an email datedFebruary
26,2016, Ms. Haynes relied to me the following information:
Capital felonies are not included within the sentencing guidelines
(&921.001(4)(b)2: "The 1994 guidelines apply to sentencing for all
feionles/except capital Monies, committed on or after January 1,1994.
Any revision to the 1994 guidelines applies to sentencing for all
Monies, except capital Monies, committed on or after the effective date
of the revision.*} Beginning 1/1/94 and until 9/30/95, the
authorization to award incentive gain time was based on the guideline
severity level of the underlying offense ($,944.27S(4)(b)2: "For
offenses ranked in offense severity levels 1 through 7, under s.
92L90l2 or s. 921.0013, up to 26 days of Incentive gain-time may be.
grantecL.For offenses ranked in offense severity levels B, % and 10,
under s. 92LO01Z or s. 921.0013, up to 20 days of incentive gain-time
may be granted), Since capital crimes are not included within the
guidelines sentencing scheme, they tee not assigned a severity level.
For terra-of-year sentences Imposed for capital crimes committed
1/1/94 to 9/30/95, no.gain time is authorized.
As of February 11,2016, the Department has posted 414$ days of net
gain-time solely for record keeping purposes. The-gain-time cannot be
applied to the sentence for a capital felony. He would be eligible for
gain-time on fee consecutive sentence in count 2.

1

i
E

10. While Mr. McGill has consistently received monthly reports from the
Department indicating his accrual and or revocation of gain-time Yet, it did not
inform him when his 4,148 days of gain-time were revoked based on fee
Department’s new interpretation of fee Florida statutes, nor was he given notice of
the Impending revocation, or an opportunity to contest the basis for fee revocation,

r
2
:

Further affiant sayeth naught,

Sonye Rudehstfae
Attorney at Law
224 NW Zai Avenue
Gainesville, FL 32601
(352)359*3972
Fla. Bar Ko. 0711950

Sworn and subscribed before roe this _ii^day of September, 2018, by Sonya
Rudenstine, who has produced the fallowing identiSeation;
9ii>L.zyiWfr^4*r>ef\o

........................

figr^affijsgsr't

; wSrSv
?a U?

£J./

Notary

MMaryWW»*««t»«ffto(i)4 fe
cewmtatanf GMmrr f,
‘ % CowB.'l»pir» MU.jtKlf
'awdriitetm>iilfallo«»<Vgl«nf ton.f

of Florida

My Commission expires on:

!■

tQ.

24>3Q-

i.

I

!
s

:
]
5

i

i:

3
i

i

r

STATE OF FLORIDA
DEPARTMENT OF CORRECTIONS

INMATE REQUEST
TO:

Q Warden
0 Asa. Warden
inmate Name

Mail Neuter:
'letmi Number;
institution:

E2t Classification
□ Medical
0 Security
0 Men<a! H«iWi
| DC Number

(CheeJt One)
FROM:

!'

Q Denial
0 Other *
jebAssignment [Date

pssssr

,

\C£r**s*< Hme . UA?/:n.

.. jfVfolgOO

REQUEST

Check bn* if this is an informal grievance Q

1------ l£ ....vJa.£.:
jCryViW t
_,v<riT»;4 AT
-da,

vjnj-_.-fd.4--l .>«y«4

1

gfc&^wJrje

tiasi:—ime—ssSatxdUx
-cS**

i hw ii i..y

CflilV ./ 4 f ,-i

—.LSJLtljLiA^jX... f Iv.-e»
^CVa
f
Vif'.k ‘l~*\r

i-V'-y '•■•>>

» T

-ii. I"!

Itktfog-.-y* f.W r •»,,

rSift.-iz*j-e<A<\ r ■■ 1
1

7

•.

.V- tvf

j .-/ ru-l^vl
-___ ^
y---l ’* f~

'■'?

V\t\ \i ; *»»:-•■ 'Y^f-. -'-vi > ■

>;'

4v, t:v
ct f\

a-sVV t c v/ r *) s*l*r>
g£- W.fi' ■■wrmf’SA' f-jr> Vv* »p. p ...: . "?■ "'1.

t

- '

?

kri.fi k

7-

.

W77-A-!;

i

.r-

/

.....

All duetts Will be handled Hi one of the following ways: I) Written Jttformaliojt br ' 21 Persofal-ase
.............informal gricvwcts will be responded to tn writing.
r
Tl|Wfe *»£&&
[ Inmate (Signaiure):^.^, j&
~~~
f'
T ■':

i;

•

"—

,n

~k'.

r-.

'. -v

.

.' .V

'-1.1.

l

DO NOT WRITE BELOW THIS LINE

I

DATE RECEIVED;

RESPONSE
..(ill

I

CtAgSiflCATJfoi

I
i

flfti/t -k^i Wt\ ham
J

!

1

r

1

f

!

i
1
'
!

•>
—-r-

fTlit fpliwi>u> pertains to inforwii} tricyatim i>nl>t
Brttfi mi the a*n>Y infotmafeec.ymirgrittdira is
‘ ' ,,„ ’ : '\TRSiikga^ofi<l.<iyArftrfa^)T¥yl^
yue tor the right lo »ai>mii a T^ynilyiwaute vivtmiaaux wMi trh»j«tr33-HD.fl86.K.^C)

: - pgicial(Print Nam#

\ ¥l\\WnM^ "
U

i

I Official (Sifenatur»}-i

•

1'
I .

\

!

u

1

foxMbttf '(

(Riginal: )nnwB: (plus nnr copy)
CC: Retained b) oflmttl responding uc if the Mt^uoM.* is to an httbnhtd grievanee riven fantaiit to be placed m inmate's file
This fimh » atsu used to rite inJemwl |iiwaims> in atctxdsna- with Refe 33-Wo WS. Hwi& Adminfe-tiSHveCkle!
tiilwTfta) Cncvarces tmi inmate Rseoests wSi Sa ;esj>onr«i in whlihi 11) days, following reseipt by' staff
Von miy utdm'D fififter aAwnMi^e rmiew *f yvur '(GMpMM by (<bwiitiil| /unit .fXT-30?, RetJlteM furAdaimiswaiVff Remedyer Appeiil. ^etlmplefo?; tot fnmtai
retltiintd by RtSt i3-lu3 W6 t'A.C. ercchja^., copy ft wnrmtiwnii! grievanoc smtl response, andfotsviirding jihr Cdnspleuil tn he xietden or assfeton *ititten im
imfoin ISd^efiwtlKaiievaiiccRsavNMtt tfhe-t SrithorMswaweekend or’lMidity. die Atodne skM he (keato-^piteiiwl'd^.
DCri-ZaoiEfiwtivc JTK,
InciSrptirulcd by lielcrencc in Rule 3>-103.005, T.A.C.

:
;

I;
5

?

t
1

ik

£7

!

1

I

:• « *•*
TIME: 2,1:52

* .?

INMATE DIEClFLXNARY ACTIONS AS OF 03/22/18

*--

V*

THE FOLttJWISG ENTRIES REFLECT DISCIPLINARY ACTIONS AGAINST TOE HMATO
FOR VIOLATION OF THE RULE CITED AND INDICATE THE GAIK TIME OATS LOST
- CURRENT INCARCERATION —DATS

DATE

LOCATION

violation

••
04/21/97
07/09/97
OS/27/98
■U/M/08
05/15/08
03/1E/09
12/16/11
4 (4-

0
0
90
0
0

o
0

. «,*

DlSRESP.TO OFFICIALS
FIGHTING
SPQBP* THREATS
SEX ACTS
DISOBEY REGULATIONS
fxgsting
POSS OF CONTRABAND

„-

APALACHEE1WEST UNIT
APALACHEE WEST UNIT
CALHOUN C.I.
CALHOUN C.I.
CALSOGB C.I.
CALHOUN C.I.
CALHOUN C.i, .

^ •: A- - - r. — •

«.■»

INMATE CLASSIFICATION ACTIONS AS OF 03/22/18

•

*

'« •• ,.,r

TIME: 11:52

t

THE FOLLOWING ENTRIES REFLECT CLASSIFICATION ACTIONS TAKEN REGARDING
THE INMATE,
CURRENT INCARCJHiATION - - LOCATION

DATE

TYFE

CUSTODY

OS/20/90
11/25/SS
11/17/98
02/20/01
06/30/17

INITIAL
SCHEDULE
SCHEDULE
SCHEDULE
INITIAL

W.

♦i . .

!

. -L ixl'-a.- _

R.K.C.- KSST UNI
APALACHEE WEST U
CALHOUN C.I.
CALHOUN C.I.
LIBERTY C.I.

CLOSE
GLOSS
CLOSE
CLOSE
CLOSE

f

- .. «
«* » r'-*- OONTOOL RELEASE ACTIONS AS OF 03/22/18

«... ,
TIKE: 11:52

:
r

i
i

THE FOLLOWING ENTRIES REFLECT CONTROL RELEASE ACTIONS TAKEN BY THE
FLORIDA COMMISSION ON! OFFENDER REVIEW FOR THIS INMATE INCLUDING ANY
ADVANCEMENTS OF' THE INMATE'S CONTROL RELEASE DATE.
— - CURRENT INCARCERATION - —
DATE
TYPE
DAYS
REASON
05/05/96

INMATE DETESK SCAT IBEL1G-CRIS

000

CR>9

|
;

MURDERER
f

i

PAGE:

3

i
*

i

